              OFFICE OF
              INSPECTOR GENERAL
              U.S. DEPARTMENT OF THE INTERIOR

                                                                                     MAR 2 1 2014
Memorandum

To:            Sylvia Mathews Burwell
               Director, Office of Management and Budget

From:          KimberlyElmore .V, A:At~ ~
               Assistant Inspectorbe;;e~~l for Audits, Inspections, and Evaluations

Subject:       Progress Made by the U.S. Department of the Interior in Implementing
               Government Charge Card Recommendations
               Report No. X-SP-MOI-0009-2014

        This memorandum provides the status of progress made by the U.S. Department of the
Interior (DOl) in implementing previous Government charge card recommendations as of the
end of fiscal year (FY) 2013.

        On October 5, 2012, the President signed into law the Government Charge Card Abuse
Prevention Act of2012 (Act), Public Law 112-194, which reinforced efforts to prevent fraud,
waste, and mismanagement of Governmentwide charge card programs. In addition to guidance in
the Office of Management and Budget (OMB) Circular No. A-123, Appendix B, Revised,
"Improving the Management of Government Charge Card Programs," and OMB Memorandum
M-12-12, "Promoting Efficient Spending to Support Agency Operations," the Act requires all
executive branch agencies to establish and maintain safeguards and internal controls for
purchase, travel, and centrally billed accounts.

        The Act and OMB Memorandum M-13-21, "Implementation ofthe Government Charge
Card Abuse Prevention Act of2012," require our office to conduct periodic risk assessments of
agency purchase cards and convenience checks, combined integrated card programs, and travel
card programs to analyze the risks of illegal, improper, or erroneous purchases and payments.
We will use these risk assessments to determine the necessary scope, frequency, and number of
audits or reviews of these programs. We are also required to report to the OMB Director 120
days after the end of each fiscal year on DOl's progress in implementing audit recommendations
related to Government charge cards; starting in FY 2013, the submission is due to OMB by
January 31, 2014.

        The travel, purchase, and fleet charge cards provide DOl with efficient ways for making
small purchases and a low-cost means to acquire goods and services, which significantly
streamlines traditional Federal procurement and payment processes; saves taxpayers millions of
dollars by reducing administrative costs and providing rebates; and allows DOl to reduce
administrative costs to recover State and local taxes and to collect detailed fleet management




                        Office of Audits, Inspections, and Evaluations I W ashington, DC
data regarding fuel, related maintenance, and service procurements. Figure 1 depicts DOI’s
volume of business-line spending using Government charge cards.

                                     FY 2012 Business Line               FY 2013 Business Line
  Charge Card Program
                                           Spending                            Spending
 Purchase Card                                  $461,290,218                        $420,765,482
 Travel Card                                      157,220,652                         115,220,652
 Fleet Card                                        49,432,973                          46,766,026
 Total                                           $667,943,843                       $582,752,160

Figure 1. DOI’s volume of business-line spending using Government charge cards in FYs 2012 and 2013.

        Our office has issued several reports related to internal controls over Government
purchase and travel charge cards within the last 2 years. In FYs 2012 and 2013, we issued 10
reports relating to Government charge cards that contained 76 recommendations. Of the 76
recommendations, we determined that 36 were resolved, implemented, and closed; 37 were
resolved but not implemented; and 3 were unresolved. DOI is working to resolve those 3
recommendations. The enclosed attachment provides detailed information about the reports,
recommendations, and the status of the recommendations.

       If you have any questions about this memorandum or require further information, please
contact me at 202-208-5745.


Attachment




                                                    2
                                                                                   Attachment


            Summary and Status of Government Charge Card Recommendations
                            For Fiscal Years 2013 and 2012

C-EV-MOA-0009-2011, “Controls Over Check-Writing,” Report Date: 10/31/2012
Latest Tracking Update: 10/31/2012
Number of Recommendations: 2
Status: 2 Resolved, 0 Closed, 0 Unresolved
1. All bureaus should evaluate their monthly reconciliation processes,
    considering lessons learned from the Department’s pilot program.
                                                                            Resolved, not
2. The Department should require Government charge card training for        implemented.
    check writers and their approving officials more frequently than the
    current minimum of every 3 years.
WR-IN-NPS-0008-2013, “GovTrip Use and Monitoring by the U.S. Department of the
Interior – National Park Service,” Report Date: 9/11/2013
Latest tracking update: 11/15/2013
Number of Recommendations: 8
Status: 8 Resolved, 0 Closed, 0 Unresolved
1.a. NPS should require supervisors to verify that vouchers contain
     supporting documentation as required by the Federal Travel Regulations
     (FTR) and accurately reflect costs incurred during travel.

1.b. NPS should require supervisors to ensure travel authorizations are
     created and approved prior to travel with the only exception being bona
     fide emergency travel.

1.c. NPS should require supervisors to review vouchers thoroughly and
     address any unresolved flagged items

1.d. NPS should require supervisors to verify that the use of a privately
     owned vehicle (POV) or Government owned vehicle (GOV) is the most
     advantageous to the Government as required by the FTR and clearly          Resolved, not
     document the basis of the decision in the travel documents.                implemented.

1.e. NPS should require supervisors to disallow per diem for travel that does
     not meet the minimum requirements set forth by DOI travel policy.

1.f. NPS should require supervisors to verify and approve all charges on
     charge card statements.

1.g. NPS should require supervisors to ensure that both the traveler and
     supervisor sign and date charge card statements.

2.   NPS should make changes to correct existing deficiencies, including
     creating and implementing policy requiring supervisors to reconcile
     charge card statements with travel vouchers.


                                                                                                1
                                                                                      Attachment


WR-IN-BOEM-0007-2013, “GovTrip Use and Monitoring by the U.S. Department of the
Interior – Bureau of Ocean Energy Management,” Report Date: 9/09/2013
Latest tracking update: 10/29/2013
Number of Recommendations: 7
Status: 7 Resolved, 2 Closed, 0 Unresolved
1.a. BOEM should require supervisors to verify that vouchers contain
     supporting documentation as required by the FTR and accurately
     reflect costs incurred during travel.

1.b. BOEM should require supervisors to ensure travel authorizations
     are created and approved prior to travel with the only exception
     being bona fide emergency travel.
                                                                                  Resolved, not
                                                                                  implemented.
1.c. BOEM should require supervisors to review vouchers thoroughly
     and address any unresolved flagged items.

1.d. BOEM should require supervisors to verify and approve all charges
     on charge card statements.

1.e. BOEM should require supervisors to ensure that both the traveler
     and supervisor sign and date charge card statements.
2.a. BOEM should make changes to correct existing deficiencies,
     including working with the bureau travel leads to ensure that profiles of
     existing and past employees are not deleted from the system.                   Resolved,
                                                                                 implemented, and
2.b. BOEM should make changes to correct existing deficiencies,                       closed.
     including creating and implementing policy requiring supervisors to
     reconcile charge card statements with travel vouchers.
WR-IN-BOR-0004-2013, “GovTrip Use and Monitoring by the U.S. Department of the
Interior – Bureau of Reclamation,” Report Date: 9/09/2013
Latest tracking update: 11/14/2013
Number of Recommendations: 9
Status: 9 Resolved, 0 Closed, 0 Unresolved
1.a. USBR should require supervisors to verify that vouchers contain
     supporting documentation as required by the FTR and accurately reflect
     costs incurred during travel.

1.b. USBR should require supervisors to verify that vouchers contain
     adequate justification for per diem claims, or reduce per diem for travel
                                                                                  Resolved, not
     over 30 days, in accordance with applicable travel regulations and
                                                                                  implemented.
     policies.

1.c. USBR should require supervisors to ensure travel authorizations are
     created and approved prior to travel with the only exception being bona
     fide emergency travel.




                                                                                                  2
                                                                                   Attachment


1.d. USBR should require supervisors to verify that use of a POV is
     advantageous to the Government and clearly justified in the travel
     authorization.

1.e. USBR should require supervisors to ensure that use of a GOV is
     consistently documented in the travel authorization and voucher.

1.f. USBR should require supervisors to verify and approve all charges on
     charge card statements.

1.g. USBR should require supervisors to ensure that both the traveler and
     supervisor sign and date charge card statements.

2.a. USBR should make changes to correct existing deficiencies, including
     creating and implementing policy limiting the use of auto-approval by
     employees to legitimate emergency travel.

2.b. USBR should make changes to correct existing deficiencies, including
     creating and implementing policy requiring supervisors to reconcile
     charge card statements with travel vouchers.
WR-EV-MOA-0006-2011, “GovTrip Use and Monitoring by the U.S. Department of the
Interior,” Report Date: 9/09/2013
Latest tracking update: 10/01/2013
Number of Recommendations: 12
Status: 12 Resolved, 0 Closed, 0 Unresolved
1. Prevent the removal of user profiles, vouchers, and authorizations from
     the active production system through E-Gov Travel Service (ETS-2)
     development and implementation.

2.   Ensure through ETS-2 development and implementation that complete
     transaction histories are generated and maintained in the new e-travel
     system and that accurate and streamlined routing lists are used.

3.   Restrict the Autobooking and T-entering features in the new system to
     only bona fide emergency travel or for arranging of travel for those
                                                                                Resolved, not
     without legitimate access to the travel system, with any exceptions to
                                                                                implemented.
     these circumstances to be documented and approved by the bureau or
     office head.

4.   Develop and implement policy and procedures that require
     reconciliation of travel transactions among travel, financial, and other
     management systems to ensure data integrity across data management
     systems in DOI.

5.   Establish minimum voucher testing requirements that address sampling,
     method, frequency, error rate, and reporting obligations across DOI.


                                                                                                3
                                                                                 Attachment


6.   Provide training, checklists, and periodic tips and best practices to
     travelers and travel managers, so that individual roles and
     responsibilities in the e-travel system are understood and that
     documentary requirements are known and established in the new
     system.

7.   Establish controls through ETS-2 development and implementation that
     limit administrative access rights to the minimum level necessary and
     require approval of administrative delegation of additional rights by the
     appropriate travel officials.

8.   Ensure through ETS-2 development and implementation that personally
     identifiable information, including credit card information, is
     safeguarded and disclosed to only those individuals in the e-travel
     environment that have a bona fide need to know in accordance with the
     Privacy Act.

9.   Identify authorizations and vouchers that have not been completely
     processed, take actions to either complete or cancel these documents in
     the active GovTrip database.

10. Through ETS-2 software development and implementation ensure that
    all future authorizations and vouchers are either processed completely
    or canceled, as appropriate.

11. Create a directory of standard reports based on DOI and bureau needs to
    provide reliable and timely travel management information that includes
    verification that documents are approved and processed within
    prescribed timeframes, established checks on various travel activities,
    and statistical information for overall travel management.

12. Ensure that the new e-travel system provides for auditor and
     management read-only access to the travel database. 13. Proactively
     work with GSA and the contractor during ETS-2 implementation and
     operation to ensure system deliverables, features, functionality, and
     reporting meet DOI and agency expectations.
WR-IN-GSV-0006-2013, “GovTrip Use and Monitoring by the U.S. Department of the
Interior – U.S. Geological Survey,” Report Date: 6/18/2013
Latest tracking update: 09/19/2013
Number of Recommendations: 6
Status: 3 Resolved, 3 Closed, 3 Unresolved
1.b. USGS should require supervisors to verify and approve all charges on
     charge card statements.                                               Unresolved and
                                                                              awaiting
1.c. USGS should require supervisors to ensure that both the traveler and    resolution.
     supervisor sign and date charge card statements.


                                                                                         4
                                                                                      Attachment


2.b. USGS should make changes to correct existing deficiencies, including
     creating and implementing policy requiring supervisors to reconcile
     charge card statements with travel vouchers.
1.a. USGS should require supervisors to ensure travel authorizations are
     created and approved prior to travel with the only exception being bona
     fide emergency travel.

2.a. USGS should make changes to correct existing deficiencies, including           Resolved,
     creating and implementing policy limiting the use of auto-approval by       implemented, and
     employees to legitimate emergency travel.                                        closed.

3.   USGS should review the vouchers identified in this report to determine
     the appropriateness of the claimed expenses and initiate steps to
     recollect all overpayments.
WR-IN-FWS-0012-2012, “GovTrip Use and Monitoring by the U.S. Department of the
Interior – U.S. Fish and Wildlife Service,” Report Date: 5/21/2013
Latest tracking update: 05/30/2013
Number of Recommendations: 10
Status: 10 Resolved, 10 Closed, 0 Unresolved
1.a. FWS should require supervisors to verify that vouchers contain
     supporting documentation as required by the FTR and accurately reflect
     costs incurred during travel.

1.b. FWS should require supervisors to ensure travel authorizations are
     created and approved prior to travel with the only exception being bona
     fide emergency travel.

1.c. FWS should require supervisors to review vouchers thoroughly and
     address any unresolved flagged items.

1.d. FWS should require supervisors to verify and approve all charges on
     charge card statements.                                                        Resolved,
                                                                                 implemented, and
1.e. FWS should require supervisors to ensure that both the traveler and              closed.
     supervisor sign and date charge card statements.

2.a. FWS should make changes to correct existing deficiencies, including
     working with the bureau travel leads to ensure that profiles of existing
     and past employees are not deleted from the system.

2.b. FWS should make changes to correct existing deficiencies, including
     creating policy limiting the use of auto-approval by employees to
     legitimate emergency travel.

2.c. FWS should make changes to correct existing deficiencies, including
     creating policy requiring supervisors to reconcile charge card statements


                                                                                               5
                                                                                     Attachment


    with travel vouchers.

2.d. FWS should make changes to correct existing deficiencies, including
     rescinding the May 27, 2010 memorandum permitting use of third-party
     travel vendors.

2.e. FWS should make changes to correct existing deficiencies, including
     clarifying the responsibility of FWS and/or NBC to follow up on errors
     found in post-payment voucher audits.
WR-IN-OSM-0014-2012, “GovTrip Use and Monitoring by the U.S. Department of the
Interior – Office of Surface Mining and Reclamation,” Report Date: 5/21/2013
Latest tracking update: 01/24/2014
Number of Recommendations: 7
Status: 7 Resolved, 6 Closed, 0 Unresolved
1.a. OSM should require supervisors to verify that vouchers contain
     supporting documentation as required by the FTR and accurately reflect
     costs incurred during travel.

1.b. OSM should require supervisors to ensure travel authorizations are
     created and approved prior to travel, with the only exception being bona
     fide emergency travel.

1.c. OSM should require supervisors to verify that POV mileage claimed by
     travelers is advantageous to the Government and clearly documented in         Resolved,
     the travel authorization.                                                  implemented, and
                                                                                     closed.
1.d. OSM should require supervisors to ensure that use of a GOV is
     consistently documented in the travel authorization and voucher.

1.e. OSM should require supervisors to verify and approve all charges on
     charge card statements.

2.a. OSM should make changes to correct existing deficiencies, including
     creating and implementing policy limiting the use of auto-approval by
     employees to legitimate emergency travel.
2.b. OSM should make changes to correct existing deficiencies, including
                                                                              Resolved, not
     creating and implementing policy requiring supervisors to reconcile
                                                                              implemented.
     charge card statements with travel vouchers.
WR-IN-BLM-0013-2012, “GovTrip Use and Monitoring by the U.S. Department of the
Interior – Bureau of Land Management,” Report Date: 5/23/2013
Latest tracking update: 07/18/2013
Number of Recommendations: 7
Status: 7 Resolved, 7 Closed, 0 Unresolved
1.a. BLM should require supervisors to verify that vouchers contain             Resolved,
     supporting documentation as required by the FTR and accurately reflect implemented, and
     costs incurred during travel.                                               closed.


                                                                                              6
                                                                                     Attachment


1.b. BLM should require supervisors to ensure travel authorizations are
     created and approved prior to travel, with the only exception being bona
     fide emergency travel.

1.c. BLM should require supervisors to review vouchers thoroughly and
     address any unresolved flagged items.

1.d. BLM should require supervisors to verify and approve all charges on
     charge card statements.

1.e. BLM should require supervisors to ensure that both the traveler and
     supervisor sign and date charge card statements.

2.a. BLM should make changes to correct existing deficiencies, including
     creating and implementing policy limiting the use of auto-approval by
     employees to legitimate emergency travel.

2.b. BLM should make changes to correct existing deficiencies, including
     creating and implementing policy requiring supervisors to reconcile
     charge card statements with travel vouchers.
WR-IN-BIA-0005-2013, “GovTrip Use and Monitoring by the U.S. Department of the
Interior – Bureau of Indian Affairs,” Report Date: 5/21/2013
Latest tracking update: 09/12/2013
Number of Recommendations: 8
Status: 8 Resolved, 8 Closed, 0 Unresolved
1.a. BIA should require supervisors to verify that vouchers contain
     supporting documentation as required by the FTR and accurately reflect
     costs incurred during travel.

1.b. BIA should require supervisors to ensure travel authorizations are
     created and approved prior to travel with the only exception being bona
     fide emergency travel.

1.c. BIA should require supervisors to review vouchers thoroughly and
     address any unresolved flagged items.                                         Resolved,
                                                                                implemented, and
1.d. BIA should require supervisors to verify and approve all charges on             closed.
     charge card statements.

1.e. BIA should require supervisors to ensure that both the traveler and
     supervisor sign and date charge card statements.

2.a. BIA should make changes to correct existing deficiencies, including
     working with the bureau travel leads to ensure that profiles of existing
     and past employees are not deleted from the system.




                                                                                              7
                                                                                 Attachment


2.b. BIA should make changes to correct existing deficiencies, including
     creating policy limiting the use of auto-approval by employees to
     legitimate emergency travel.

2.c. BIA should make changes to correct existing deficiencies, including
     creating policy requiring supervisors to reconcile charge card statements
     with travel vouchers.




                                                                                         8
